OIG Audit Report GR-30-99-005
Office of Justice Programs Bureau of Justice Assistance 	Police Hiring Supplement Grant Awarded to the Salisbury, Maryland Police Department
Audit Report GR-30-99-005	
July 20, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, completed an audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the City of Salisbury (City), Maryland, Police Department (grantee).  The grantee received a grant of $289,007 to hire five police officers under the Police Hiring Supplement (PHS) program.  The grant award period, December 1, 1993 through March 31, 1997, has concluded.  The purpose of the grant was to enhance community-policing efforts. 

Our audit determined that:

The grantee did not prepare its reimbursement requests accurately and, as a result, did not request as much reimbursement as it was entitled to receive.  The grantee incurred allowable costs totaling $394,600, entitling it receive the full grant award, $289,007.  Also, the OJP apparently never received or processed the final request for reimbursement of $20,891.  At the conclusion of our review, there was a remaining balance of $27,600 not drawn-down by the grantee.

	The grantee prepared only half of the required Progress Reports during the grant award period.  However, the grantee prepared and filed its Final Report.  Although the grantee submitted all 14 of its required Financial Status Reports, only 5 of the 14 were submitted timely.  The other reports either were submitted late or did not have the submission date recorded on them.

The above items are discussed in the FINDINGS AND RECOMMENDATION section of the report.  Our SCOPE AND METHODOLOGY appear in the Appendix.